      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




June 10, 2011

TO:             Francis S. Collins, M.D., Ph.D.
                Director
                National Institutes of Health


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Appropriations Funding for National Institute of Allergy and Infectious Diseases
                Contract N01-AI-15416 With the University of California at San Francisco
                (A-03-10-03120)


The attached final report provides the results of our review of appropriations funding for
National Institute of Allergy and Infectious Diseases contract N01-AI-15416 with the University
of California at San Francisco.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-03-10-03120 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




    APPROPRIATIONS FUNDING
   FOR NATIONAL INSTITUTE OF
          ALLERGY AND
       INFECTIOUS DISEASES
     CONTRACT N01-AI-15416
WITH THE UNIVERSITY OF CALIFORNIA
        AT SAN FRANCISCO




                        Daniel R. Levinson
                         Inspector General

                            June 2011
                          A-03-10-03120
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the U.S. Department of Health
& Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). Federal statutes also limit the time during which an appropriation is available. A
fiscal year appropriation may be obligated only to meet a legitimate, or bona fide, need arising
in, or in some cases arising prior to but continuing to exist in, the appropriation’s period of
availability (31 U.S.C. § 1502(a)). Congress determines the amount of funding available to an
agency for the purchase of goods and services by enacting appropriations. The Antideficiency
Act prohibits an agency from obligating or expending those funds in advance of or in excess of
an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency may fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract was awarded, even though its
performance may extend into subsequent fiscal years.

On September 30, 2001, NIAID awarded contract N01-AI-15416 (the Contract), totaling
$134.8 million, to the University of California, San Francisco, California (the university). The
Contract requires the university to support the research efforts of the Collaborative Network for
Clinical Research on Immune Tolerance. We determined that the Contract is a nonseverable
service contract because it represents a single undertaking (to plan and guide the advancement of
overall research in certain areas) and provides for a single outcome (to produce a technical report
summarizing the research and suggesting future areas of research). During fiscal year 2005, a
no-cost modification extended the Contract to September 30, 2007. In addition, during fiscal
year 2007, NIAID made a modification totaling $220.5 million for additional nonseverable
services that extended the Contract through April 30, 2014, and increased the total Contract
amount to $355.3 million. We determined that the Contract modification is for nonseverable



                                                 i
services because although it includes additional tasks, it continues the work of the original
Contract.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time requirements and amount requirements
specified in the statutes. NIAID initially funded only $35.3 million of the $134.8 million
Contract obligation with fiscal year 2001 appropriations. NIAID obligated a total of
$99.5 million in violation of the bona fide needs rule: $19.5 million of fiscal year 2002
appropriated funds, $22.4 million of fiscal year 2003 appropriated funds, $23.4 million of fiscal
year 2004 appropriated funds, $22.7 million of fiscal year 2005 appropriated funds, and
$11.5 million of fiscal year 2006 appropriated funds. Because the Contract was for nonseverable
services, NIAID was required to record the full amount of the Contract using fiscal year 2001
appropriated funds. By not doing so, NIAID potentially violated the Antideficiency Act.

In addition, when it awarded a fiscal year 2007 Contract modification for nonseverable services,
NIAID initially funded only $40.3 million of the $220.5 million contract obligation with fiscal
year 2007 appropriations. NIAID obligated a total of $58.2 million in violation of the bona fide
needs rule ($48.8 million of fiscal year 2008 appropriated funds and $9.4 million of fiscal year
2009 appropriated funds), and NIAID planned to obligate an additional $122.0 million of future
years’ appropriated funds. By not recording the full obligation using fiscal year 2007
appropriations, NIAID potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violations, NIAID will need to deobligate all fiscal year 2002
through 2006 appropriations obligated for the base Contract and all appropriations after fiscal
year 2007 obligated for the Contract modification. To remedy a potential Antideficiency Act
violation, NIAID would have needed to record an obligation of $99.5 million ($134.8 million
less $35.3 million) using fiscal year 2001 appropriations for the base Contract. However,
because fiscal year 2001 funds are no longer available to record the obligation, NIAID may be
able to fund the deficiency by using $99.5 million of current year appropriations provided the
conditions of 31 U.S.C.§§ 1553 and 1554 are met. If NIAID does not have $99.5 million of
current fiscal year appropriations or the amount exceeds the lesser of 1 percent of the current
appropriation or the unexpended balance of the closed appropriation, it will violate the
Antideficiency Act.


                                                 ii
To remedy a potential further Antideficiency Act violation, NIAID will need to record an
obligation of $180.2 million ($220.5 million less $40.3 million) using fiscal year 2007
appropriations for the Contract modification. If NIAID does not have $180.2 million of fiscal
year 2007 appropriations available, it will further violate the Antideficiency Act.

RECOMMENDATIONS

Our recommendations to address NIAD’s funding violations and other financial management
issues are presented in the body of the report.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH agreed that a bona fide needs violation and an
Antideficiency Act violation had occurred but did not agree with our characterization of the
Contract as a nonseverable service contract or the nature of the bona fide needs violation. NIH
did not address our recommendations to correct the obligation of funds for prior Contract years.

Specifically, NIH stated that the Contract was for severable services and that it violated the bona
fide needs rule because it obligated the Government to acquire severable services in advance of
appropriations that could be used for such services, even if the bona fide need had been properly
identified and the exception (allowed under 41 U.S.C. § 253l) were applicable. NIH said that
HHS would report an Antideficiency Act violation as required by 31 U.S.C. § 1351 and that
NIAID had modified the Contract to ensure that remaining contract performance was funded
appropriately. NIH’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While the Contract may contain severable elements, we maintain that, on balance, the Contract is
nonseverable. We determined that the Contract was overall nonseverable based on the language
describing the tasks included in the statement of work. Although some services are continuing
and recurring clinical support services, the Contract requires the university to guide and plan the
overall direction of research and to make specific suggestions (in the final technical report
deliverable) for the advancement of research. Further, NIH did not properly fund the obligation
under any of the allowable funding methods for severable service contracts, including the
exception claimed under 41 U.S.C. § 253l.

Although NIH said that it must report an Antideficiency Act violation, it did not address our
recommendation to correct the improper funding of the Contract. Until NIH makes these
adjustments, HHS cannot report the correct amount of its Antideficiency Act violation.

Therefore, we continue to recommend that NIAID record the obligation for the base Contract by
using $99.5 million of current fiscal year appropriations provided the conditions of 31 U.S.C.
§§ 1553 and 1554 are met. If NIAID does not have $99.5 million of current fiscal year
appropriations available or the amount exceeds the lesser of 1 percent of the current
appropriation or the unexpended balance of the closed appropriation, it must report the
Antideficiency Act violation. In addition, NIAID will need to record an obligation of
$180.2 million using fiscal year 2007 appropriations to correct funding for the Contract
modification or, if funds are not available, report a further Antideficiency Act violation. NIAID


                                                iii
will also need to deobligate funds appropriated for other years. We have modified our
recommendations to identify the funding adjustments necessary by fiscal year.




                                              iv
                                                                                                                               DRAFT



                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Federal Appropriations Statutes ............................................................................ 1
              National Institute of Allergy and Infectious Diseases Contract Award ................ 2
              Departmental Review of National Institutes of Health Contracts ........................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FUNDING VIOLATIONS ............................................................................................... 4
               Bona Fide Needs Rule Violation .......................................................................... 4
               Potential Antideficiency Act Violation................................................................. 5

          CAUSES OF FUNDING VIOLATIONS ......................................................................... 6

          RECOMMENDATIONS .................................................................................................. 6

          NATIONAL INSTITUTES OF HEALTH COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE .................................................. 7
               National Institutes of Health Comments ...............................................................7
               Office of Inspector General Response .................................................................. 8

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     v
                                              INTRODUCTION

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the U.S. Department of Health
& Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation was made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with separate subsequent fiscal year appropriations. A contract for a single outcome or effort is
chargeable to the fiscal year in which it was awarded, even though its performance may extend
into subsequent fiscal years. The Comptroller General has explicitly held that incremental
funding (i.e., other than full funding) of nonseverable service contracts violates the bona fide
needs rule without statutory authority (71 Comp. Gen. 428 (1992)).

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, part 4, § 145, prescribes the methodology for this reporting.

National Institute of Allergy and Infectious Diseases Contract Award

On September 30, 2001, NIAID awarded contract N01-AI-15416 (the Contract), totaling
$134.8 million, to the University of California, San Francisco, California (the university). The
Contract requires the university to support the research efforts of the Collaborative Network for
Clinical Research on Immune Tolerance. We determined that the Contract is a nonseverable
service contract because it represents a single undertaking (to plan and guide the advancement of
overall research in certain areas) and provides for a single outcome (to produce a technical report
summarizing the research and suggesting future areas of research). During fiscal year 2005, a
no-cost modification extended the Contract to September 30, 2007. In addition, during fiscal
year 2007, NIAID made a modification totaling $220.5 million for additional nonseverable
services that extended the Contract through April 30, 2014, and increased the total Contract
amount to $355.3 million. We determined that the Contract modification is for nonseverable
services because although it includes additional tasks, it continues the work of the original
Contract. 3

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law. 4 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.




3
 On the whole, we characterized the Contract modification as nonseverable because the revised statement of work
continues the original work of the Contract. Although the modification may include severable services, it does not
provide sufficient information to distinguish these services clearly.
4
    Funding Multiple Year Contracts; Tiger Team Summary Report, July 29, 2009.


                                                         2
Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2001
through 2009. We did not review NIAID’s internal controls because our objective did not
require such a review.

We performed our fieldwork at NIAID in Bethesda, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •    reviewed the Tiger Team report;

   •    reviewed Contract file documentation, including the statement of work, to determine the
        nature of the products or services to be provided; and

   •    analyzed funding documents and payment invoices to determine what appropriations
        were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time and amount requirements specified in
the statutes. NIAID initially funded only $35.3 million of the $134.8 million Contract obligation
with fiscal year 2001 appropriations. NIAID obligated a total of $99.5 million in violation of the
bona fide needs rule: $19.5 million of fiscal year 2002 appropriated funds, $22.4 million of
fiscal year 2003 appropriated funds, $23.4 million of fiscal year 2004 appropriated funds,
$22.7 million of fiscal year 2005 appropriated funds, and $11.5 million of fiscal year 2006
appropriated funds. Because the Contract was for nonseverable services, NIAID was required to
record the full amount of the Contract using fiscal year 2001 appropriated funds. By not doing
so, NIAID potentially violated the Antideficiency Act.

In addition, when it awarded a fiscal year 2007 Contract modification for nonseverable services,
NIAID initially funded only $40.3 million of the $220.5 million contract obligation with fiscal
year 2007 appropriations. NIAID obligated a total of $58.2 million in violation of the bona fide
needs rule ($48.8 million of fiscal year 2008 appropriated funds and $9.4 million of fiscal year
2009 appropriated funds) and planned to obligate an additional $122.0 million of future years’
appropriated funds. By not recording the full obligation using fiscal year 2007 appropriations,
NIAID potentially violated the Antideficiency Act.


                                                3
To remedy the bona fide needs rule violations, NIAID will need to deobligate all fiscal year 2002
through 2006 appropriations obligated for the base Contract and all appropriations after fiscal
year 2007 obligated for the Contract modification. To remedy a potential Antideficiency Act
violation, NIAID would have needed to record an obligation of $99.5 million ($134.8 million
less $35.3 million) using fiscal year 2001 appropriations for the base Contract. However,
because fiscal year 2001 funds are no longer available to record the obligation, NIAID may be
able to fund the deficiency by using $99.5 million of current year appropriations provided the
conditions of 31 U.S.C.§§ 1553 and 1554 are met. If NIAID does not have $99.5 million of
current fiscal year appropriations or the amount exceeds the lesser of 1 percent of the current
appropriation or the unexpended balance of the closed appropriation, it will violate the
Antideficiency Act.

To remedy a potential further Antideficiency Act violation, NIAID will need to record an
obligation of $180.2 million ($220.5 million less $40.3 million) using fiscal year 2007
appropriations for the Contract modification. If NIAID does not have $180.2 million of fiscal
year 2007 appropriations available, it will further violate the Antideficiency Act.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violation

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved. A contract for nonseverable services
must reflect a bona fide need identified in the fiscal year in which the agency awards the
contract, although the contract’s performance may extend into subsequent fiscal years. An
agency must fully fund a nonseverable service contract by obligating funds representing the
entire amount of the contract from appropriations available during the fiscal year in which the
agency awards the contract.

In fiscal year 2001, NIAID awarded the 5-year nonseverable service Contract and incurred an
obligation totaling $134.8 million based on an existing bona fide need. However, NIAID
recorded only $35.3 million of the obligation with fiscal year 2001 appropriations.
Subsequently, NIAID improperly recorded obligations of $19.5 million using fiscal year 2002
appropriated funds, $22.4 million using fiscal year 2003 appropriated funds, $23.4 million using
fiscal year 2004 appropriated funds, $22.7 million using fiscal year 2005 appropriated funds, and
$11.5 million using fiscal year 2006 appropriated funds. However, NIAID did not have a bona
fide need after fiscal year 2001. To remedy the violation, NIAID will need to deobligate the
$99.5 million improperly obligated after fiscal year 2001.

In addition, during fiscal year 2007, NIAID extended the Contract through April 30, 2014, an
additional 7 years, and incurred an obligation totaling $220.5 million based on an existing bona
fide need. However, NIAID recorded only $40.3 million of the obligation with fiscal year 2007
appropriations. Subsequently, NIAID improperly recorded obligations of $48.8 million using
fiscal year 2008 appropriated funds and $9.4 million using fiscal year 2009 appropriated funds


                                                 4
and planned to obligate $122 million with future years’ appropriated funds. However, NIAID
did not have a bona fide need after fiscal year 2007. To remedy the violation, NIAID will need
to deobligate the $58.2 million ($48.8 million plus $9.4 million) obligated with fiscal years 2008
and 2009 appropriations and any additional funds improperly obligated after fiscal year 2009.

Potential Antideficiency Act Violation

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, part. 4, § 145, prescribes the methodology for
this reporting.

Pursuant to 31 U.S.C. §§ 1551-1553, the account 5 closing statutes, after fiscal year
appropriations expire, they remain available to record, adjust, and liquidate obligations properly
chargeable to the appropriation account for up to 5 years. After 5 years, the appropriation
account is closed and the balance is canceled.

Pursuant to 31 U.S.C. § 1553(b), if fiscal year funds are no longer available because an account
has been closed, an agency may charge the obligation to the current fiscal year appropriation
account available for the same purpose. The amount charged to the current fiscal year
appropriation account may not exceed the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation.

Pursuant to 31 U.S.C. § 1554, after the close of each fiscal year, the head of each agency must
submit to the President and the Secretary of the Treasury a report on adjustments made to
appropriation accounts during the year, including any adjustments to obligations pursuant to
section 1553.

NIAID should have recorded the full fiscal year 2001 obligation for $134.8 million at the time of
the Contract award. Instead, NIAID recorded only $35.3 million of the obligation with fiscal
year 2001 appropriations. Because fiscal year 2001 funds are no longer available to record the
obligation, NIAID may be able to fund the deficiency by using $99.5 million ($134.8 million less
$35.3 million) of current fiscal year appropriations provided the conditions of 31 U.S.C. §§ 1553
and 1554 are met. If NIAID does not have $99.5 million of current fiscal year appropriations
available or the amount exceeds the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation, it will violate the Antideficiency Act.

In addition, NIAID should have recorded the full fiscal year 2007 obligation for $220.5 million
at the time the Contract was modified. Instead, NIAID recorded only $40.3 million of the
obligation with fiscal year 2007 appropriations. To remedy this potential Antideficiency Act

5
 Each agency has an account, maintained by the Department of the Treasury, that tracks the amount of funds
available for use. That account is credited with funds appropriated in the agency’s budget and reduced by
expenditures made by the agency to perform the tasks for which the credit was given.


                                                        5
violation, NIAID will need to record an obligation of $180.2 million ($220.5 million less
$40.3 million) using fiscal year 2007 appropriations. If NIAID does not have $180.2 million of
fiscal year 2007 appropriations available, it will further violate the Antideficiency Act.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

   •   widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

   •   the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

   •   the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.

The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued the HHSAR on December 20, 2006.

RECOMMENDATIONS

We recommend that NIAID:

   •   deobligate $19.5 million of fiscal year 2002 appropriations and return the canceled funds
       to the Treasury;

   •   deobligate $22.4 million of fiscal year 2003 appropriations and return the canceled funds
       to the Treasury;

   •   deobligate $23.4 million of fiscal year 2004 appropriations and return the canceled funds
       to the Treasury;

   •   deobligate $22.7 million of fiscal year 2005 appropriations and return the canceled funds
       to the Treasury;

   •   deobligate $11.5 million of fiscal year 2006 funds;

   •   record the remaining $99.5 million of the $134.8 million Contract obligation against
       current fiscal year appropriations;

   •   report an Antideficiency Act violation if sufficient current fiscal year appropriations are
       not available;

   •   report, in accordance with 31 U.S.C. § 1554, the adjustment to the Contract using current
       fiscal year appropriations;



                                                 6
   •   deobligate $48.8 million of fiscal year 2008 funds;

   •   deobligate $9.4 million of fiscal year 2009 funds;

   •   deobligate appropriations for subsequent fiscal years NIAID may have obligated for the
       contract modification after our audit;

   •   record the remaining $180.2 million of the $220.5 million contract obligation against
       fiscal year 2007 funds; and

   •   report an additional Antideficiency Act violation if fiscal year 2007 funds are not
       available.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH agreed that an Antideficiency Act violation had
occurred but did not concur with our findings and recommendations regarding the
characterization of the Contract as a nonseverable service contract. NIH did not address our
recommendations to correct the obligation of funds for prior Contract years. Nevertheless, NIH
said that HHS would report an Antideficiency Act violation. We have summarized NIH’s
comments, along with our responses, below. NIH’s comments are included in their entirety as
the Appendix.

National Institutes of Health Comments

NIH did not concur with our characterization of the Contract as a nonseverable service contract.
NIH stated, “The overall purpose of the contract is to continuously identify and review
opportunities for meritorious research in the area of immune tolerance, make recommendations
to NIAID, and provide ongoing support to other organizations conducting clinical trials and
related research.” Further, NIH stated that the statement of work “describes severable services
because the contractor is providing ongoing support to numerous studies and is not responsible
for a single nonseverable deliverable.” NIH concluded that because the Contract and its
modification did not have a defined end product at the time of award, “these were severable
services contracts.”

However, NIH stated that it had violated the bona fide needs rule because: “In this instance, at
award, FY01 [fiscal year 2001] funds were used for a need of FY01 – FY03 beyond the one year
permitted by the exception [41 U.S.C. § 253l], even if the bona fide need had been properly
identified and the exception were applicable.”

In addition, NIH stated: “NIAID violated this statute [Antideficiency Act] because it obligated
the Government to acquire severable services in an amount that exceeded and could be charged
to the available FY01 appropriation and other fiscal year appropriations.” NIH said that HHS
would report the violation as required by 31 U.S.C § 1351 and that “NIAID has modified the
contract to ensure that remaining contract performance is funded appropriately and in accordance
with all applicable laws and regulations.”



                                                7
Office of Inspector General Response

While the Contract may contain severable elements, we maintain that, on balance, the Contract is
nonseverable. We determined that the Contract was overall nonseverable based on the language
describing the tasks included in the statement of work. Although some services are continuing
and recurring clinical support services, the Contract requires the university to guide and plan the
overall direction of research and to make specific suggestions (in the final technical report
deliverable) for the advancement of research. Further, NIH did not properly fund the obligation
under any of the allowable funding methods for severable service contracts, including the
exception claimed under 41 U.S.C. § 253l.

Although NIH said that it must report an Antideficiency Act violation, it did not address our
recommendation to correct the improper funding of the Contract. Until NIH makes these
adjustments, HHS cannot report the correct amount of its Antideficiency Act violation.

Therefore, we continue to recommend that NIAID record the obligation for the base Contract by
using $99.5 million of current fiscal year appropriations provided the conditions of 31 U.S.C.
§§ 1553 and 1554 are met. If NIAID does not have $99.5 million of current fiscal year
appropriations available or the amount exceeds the lesser of 1 percent of the current
appropriation or the unexpended balance of the closed appropriation, it must report the
Antideficiency Act violation. In addition, NIAID will need to record an obligation of
$180.2 million using fiscal year 2007 appropriations to correct funding for the Contract
modification or, if funds are not available, report a further Antideficiency Act violation.

NIAID will also need to deobligate funds appropriated for other years. We have modified our
recommendations to identify the funding adjustments necessary by fiscal year.




                                                8
APPENDIX
                                                                                                  Page 1 0(7

             APPENDIX: NATIONAL INSTITUTES OF HEALTH COMMENTS


        DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                              Public Health Service



                                                                              National Institutes of Health
                                                                              Bethesda, Maryland 20892




APR 1 3 2011



TO: 	        Daniel R. Levinson
             Inspector General, HHS

FROM: 	      Director, National Institutes of Health

SUBJECT: 	 Response to OIG Draft Report, Appropriations Fundingfor the National Institute of
           Allergy and InfectiOUS Diseases Contract NO] -AI-15416 With the University of
           California at San Francisco (A-03-1 0-03120)


Attached .are the National Institutes of Health's revised comments on the Office ofInspector
General's draft report entitled, Appropriations Fundingfor the National Institute ofAllergy and
Infectious Diseases Contract N01-AI-15416 With the University ofCalifornia at San Francisco
(A-03-10-03120).

We appreciate the opportunity to review and comment on this important topic. We have
provided general comments that address the findings and recommendations in the draft report.
Should you have questions or co'ncerns regarding our comments, please contact Meredith Stein
in the Office of Management Assessment at 301-402-8482.




                                             Francis S. Collins, M.n, Ph.D.

Attachment
                                                                                                   Page 2 of7



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED, APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE OFALLERGY
AND INFECTIOUS DISEASES CONTRACT N01-AI-15416 WITH THE UNIVERSITY OF
CALIFORNIA AT SAN FRANCISCO (A-03-10-03120)


The National Institutes of Health (NIH) appreciates the review conducted by OIG and the
opportunity to provide clarifications on this draft report. We respectfully submit the following
general comments. We are not submitting any technical comments to the draft report.

DIG Fi1ldings:

   • 	 NJAID did nm comply with the time requirements and may.not have complied with the
       amount requirements specified in Federal appropriations law. NIAID awarded a contract
       in 2001 but initially funded only $35.3 million of the $134.8 million contract obligation
       with fiscal year 2001 appropriations. NIAID obligated a total of $99.5 million in
       violation of the bonafide needs rule:

           o	   $19.5 million of fiscal   year 2002   appropriated funds;
           o	   $22.4 million of fiscal   year 2003   appropriated funds;
           o	   $23.4 million of fiscal   year 2004   appropriated funds;
           o	   $22.7 million of fiscal   year 2005   appropriated funds; and
           o	   $11.5 mil1ion of fiscal   year 2006   appropriated funds.

   • 	 Because the OIG report concluded that the contract was for nonseverable services, it
       found that NIAID was required to record the full amount of the contract using fiscal year
       2001 appropriated funds and that by not recording the full obligation using fiscal year
       2001 appropriations, NIAID potentially violated the Antideficiency Act.

   • 	 When NIAID executed a fiscal year 2007 contract modification for nonseverable
       services, it initially funded only $40.3 million of the $220.5 million contract obligation
       with fiscal year 2007 appropriations. NIAID obligated a total of$58.2 million in
       violation of the bonafide needs rule ($48.8 million of fiscal year 2008 appropriated funds
       and $9.4 million of fiscal year 2009 appropriated funds). By not recording the full
       obligation using fiscal year 2007 appropriations, NIAID potentially violated the
       Antideficiency Act.

DIG Recommelldations:

   • 	 NIAID should record the remaining $99.5 million of the $134.8 million contract
       obligation against fiscal year 2001 funds and deobiigate funds appropriated for years
       other than fiscal year 2001 for the base contract;

   • 	 NIAID should record the remaining $180.2 million of the $220.5 million contract
       modification against fiscal year 2007 funds and deobligate funds appropriated for years
       other than fiscal year 2007; and
                                                                                                       Page 3 of7




GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (MHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED, APPROPRIATIONS FUNDING-FOR NATIONAL INSTITUTE OF ALLERGY
AND INFECTIOUS DISEASES CONTRACT NOl~AI-15416 WITH THE UNIVERSITY OF
CALIFORNIA AT SAN FRANCISCO (A-03-10-03120)


    • 	 NIAID must report Antideficiency Act violations if fiscaJ year 2001 and 2007 funds are 

        not available. 


NIH Comments:

    NIH does not concur with the OIG's findings that the base contract and fiscal year 2007 

    modification are nonseverable and, therefore, does not concur with the reconunendations 

    based upon those findings. NIH believes that the base contract and modification should be 

    properly characterized as severable services. 


    A nonseverable contract is one that cannot feasibly be subdivided into separate tasks. For 

    example, this contract would be nonseverable if it required the contractor to "Test drug A on 

    population B for three years and submit a report." However, as specifically illustrated below, 

    the statements of work (SOW) in both the base contract and the 2007 modification set forth 

    numerous severable services that the contractor is to perfonn on an ongoing basis over the 

    term of the· contract, and are, therefore, severable, rather than nonseverable. The 

    Government Accountability Office (GAO) describes a "nonseverable" contract as follows: 


              [W]here the service provided constitutes a specific, entire job with a defined end­
              pr?duct that cannot feasibly be subdivided for separate perfonnance in each fiscal
              year, the·task should be financed entirely out of the appropriation current at the
              time of a\vard, notwithstanding that performance may extend into future years.
              Thus a nonseverable contract is essentially a single undertaking that cannot feasibly
              be subdivided.1

    Neither the NIAID base contract nor the 2007 modification had a "defined end-product" at 

    the time of awarcL Neither was established to conduct a specific research project or clinical 

    trial. Instead, the contractor is to establish and participate in various committees and 

    networks to identify and support meritorious research projects performed by NIH, other 

    Government age~cies, and private sector companies. In short, these were severable services 

    contracts. Further, the base contract and the 2007 modification not only can "feasibly be 

    subdivided," they have been subdivided into numerous short-term tasks that independently 

    provide value to the Government. Based on GAO's definition, NIAID Contract NOI-AI­
    15416 and the 2007 modification are for severable services. 


    The GAO developed the following test to determine whether services are severable or
    nonseverable:



I Flmdingfor Air Force Cost Plus Fixed Fee Level ofEfjorl Contract, B-277] 65, Jan . .10, 2000 (citations
omitted) (emphasis added).

                                                                                                 2

                                                                                                          Page 4 of7



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED, APPROPRIA TIONS FUNDING FOR NATIONAL INSTITUTE OFALLERGY
AND INFECTIOUS DISEASES CONTRACT N01-AI-15416 WITH THE UNIVERSITY OF
CALIFORNIA AT SAN FRANCISCO (A-03-10-03120)

                [TJhere is a fairly simple test that is often helpful in determining whether a given
                service is severable or nonseverable. Suppose that a service contract is to be
                perfonn~d half in one fiscal year and half in ihe next. Suppose further that the
                contract .is tenninated at the end of the first fiscal year and is not renewed. What do
                you have? In the case of a window-c leaning contract, you have half of your
                windows dean, a benefit that is not diminished by the fact that the other half is still
                dirty. What you paid for in the first half has not been wasted. These services are
                clearly severable?

      The SOW in NIAID Contract NOI-AI-15416 describes severable services because the 

      contractor is provJding ongoing support to numerous studies and is not responsible for a 

      single nonseverable deliverable. Although the contractor must submit various reports, these 

      are merely status :reports and summaries of the severable services that were perfomled during 

      the specified reporting periods. The overall purpose of the contract is to continuously 

      identifY and review opportunities for meritorious research in the area of immune tolerance, 

      make recommendations to NIAID, and provide ongoing support to other organizations 

      conducting clinical trials and related research. The purpose is described in Article B.l of the 

      base contract as follows: "to support the Collaborative Network for Clinical Research on 

      Immune Tolerance." Toward this end, the base contract SOW requires the contractor to 

      perform the follo\.ving severable services (described in Parts A-D): 


      .• 	 Base Contrac~ SOW, Part A (Kidney and Islet Transplantations). Part A describes the 

           initial set-up phase of the contract in which the contractor must "establish the 

           Collaborative:Network for Clinical Research" (para. 1.), "develop and implement the 

           scientific agenda" (para. 2.), "develop a plan for scientific management of the Network" 

           (para. 3.), and "establish and manage an executive committee" (para. 6.). Once this 

           preliminary work is completed, the contractor is to support 8-15 clinical trial sites 

           (para. 4.) and support "clinical trials sponsored by other Federal and private sector 

           organizations and companies" (para. 5.). The language in Part A indicates that'this is not 

           a nonseverabJe contract for a particular study but a contract to provide a wide range of 

           severable services in support of many studies. 


      • 	 Base Contract SOW, Part B (Development and Validation of Tolerance Assays). Part B 

          requires the contractor to establish and manage a Tolerance Assay Group that will 

          "design and conduct studies as an integral part ofNenNork-sponsored clinical trials ... as 

          well as clinical trials ... sponsored by other Federal and private organizations and 

          companies. " 


      • 	 Base Contract SOW, PartC (Autoimmune Diseases). Part C follows the pattern of Parts 

          A and B and also requires the contractor to set up a scienti fic agenda to identifY .


2   GAO, Principles ofFederal Appropriations Law, Jan. 2004, v.l, p. 5-28.

                                                                                                     3

                                                                                                     Page 5 of7



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED, APPROPRlA nONS FUNDING FOR NATIONAL INSTITUTE OFALLERGY
AND INFECTIOUS DISEASES CONTRACT NOl~AI-15416 WITH THE UNIVERSITY OF
CALIFORNIA AT SAN FRANCISCO (A-03-10-03120)

          promising research projects (para. 1.), support clinical trials conducted at between 8-13
          sites (para. 2.), and participate in the Network Executive Committee to provide "scientific
          leadership and direction for the overall governance of the Network" (para. 4.).

      • 	 Base Contract SOW, Part D (Asthma and Allergic Diseases). Part D follows the pattern 

          of Parts A thru C and requires the contractor to perform oversight and management 

          functions in support of numerous clinical trials. 


      In all four Parts (A-D) of the SOW, it is significant to note that, at the time of award, there 

      was no "spedfic, entire job with a defined end-product," as GAO requires as a precondition 

      of nonseverability.3 Essentially, the contract was for clinical trial support based on needs that 

      were not specifically knO\'V11 at the time of award. Each time a promising study was 

      identified, or a trial was initiated, or a recommendation was made, the Government received 

      services that had value that was independent of any final deliverable. This is the essence of 

      severability under applicable GAO case law. 


      The SOW pertaining to the 2007 modification continued the work specified in Parts.A-D and 

      added the following severable tasks: 


       • 	 Overview Item III (NoncIinical Research and Candidate Drug Development). The SOW 

           states that "[s]uch activities may include proof-of-principle studies, production, 

           pharmacokinetics and pharmacodynanlics studies and nonclinical toxicity studies." The 

           open-ended nature of these tasks indicates that the modification was not for "a specific, 

           entire job with a defined' end-product," which GAO considers to be a critical element of 

           nonseverabil ity. 


      • 	 Overview Item VI (Bioinformatics, Data Collection, and Validation). This task requires 

          the contractor to maintain a secure database to support various research projects on an 

          ongoing basis. 


      • 	 Overview Item VII (Collaboration With Clinical Research Programs and Organizations). 

          This task requires the contractor to "collaborate, including infonnation sharing, with 

          other NIH-sponsored clinical research programs, private organizations, and 

          companies .... " 


      • 	 Overview Item VIII (Project Management). This task (described on page 21        of
                                                                                         the 

          SOW) requires the contractor to perform a variety of severable tasks such as oversight, 

          comrimnicating with the NIAID Project Officer, and submitting status updates (para. A.); 




J   Fundingfor Air Force Cost PIllS Fixed Fee Level ofEffort Contract, B-277165, Jan. 10,2000.

                                                                                                 4
                                                                                               Page 6 of7



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED,APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE OFALLERGY
AND INFECTIOUS DISEASES CONTRACT N01-AI-1541 6 WITH THE UNIVERSITY OF
CALIFORNIA AT SAN FRANCISCO (A-03-10-03120)

      Financial Management (para. B.); and Subcontract Execution, Management and
      Reporting (para. C.).

  Applying GAO's test of severability (above), if one were to terminate the contract or the 

  modification midway through the performance period, the Government would have received 

  the benefit of completed elements of performance; e.g., the contractor would have identified 

  meritorious projects, prepared plans and agendas, attended meetings, maintained a secure 

  database, collaborated with others, and managed numerous projects. As GAO stated above: 

  "What you paid for in the first halfhas not been wasted. These services are clearly 

  severable. " 


  ::since NIAID Contract NO l-AI-15416 and the 2007 modification should be properly 

  characterized as severable, it would have been inappropriate to fully fund them at aviard. As 

  a general rule, severable services are the bona fide need of the fiscal year in which they are 

  performed. Thus, generally speaking, agencies must obligate the appropriation that is current 

  when the services are performed. However, 41 V.S.c. § 2531 provides an exception to this 

  general rule and allows agencies using annual appropriations to obligate funds current at the 

  time of contract award to fund a severable services contract that crosses fiscal years, 

  provided the performance period does not exceed 1 year. In this instance, at award, FYOI 

  funds were used for a need 9fFYOl - FY03 beyond the one year pennitted by the exception, 

  even jfthe bonafide need had been properly identified and the exception were applicable. 


  The Antideficiency Act (ADA) prohibits, in pertinent part, an officer or employee of the 

  Government from involving the Government in any contract or other obligation for the 

  payment of money for any purpose in advance of appropriations made for such purpose, 

  u~less the contract or obligation is authorized by law, 31 U.S.C. § 1341(a)(1)(B). NIAID 

  violated this statute because jt obligated the Government to acquire severable services in 

  FYO1 - FY lOin advance of appropriations which could be used for such services . 


  The ADA also prohibits, in pertinent part, making or authorizing an expenditure from, or 

  creating or authorizing an obligation under, any appropriation or fund in excess of the 

  amount available in the appropriation or fund unless authorized by law. 31 U.S.c. § 

  1341 (a)(1 )(A). NIAID violated this statute because it obligated the Government to acquire 

  severable services in an amount that exceeded and could be charged to the available FYOI 

  appropriation and other fiscal year appropriations. 


  Finally, even if the contract were viewed as nonseverab1e in nature, as concluded by OIG , 

  NIH agrees that the ADA would be violated because the FYOI account is closed and funds 

  are no longer available to adjust the under recorded obligation. Moreover, under this view, 

  even if sufficient funds are available in the current appropriation, as provided by 31 V.S.c. § 




                                                                                         5
                                                                                               Page 7 of7


GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES mHS) OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
ENTITLED, APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE. OF ALLERGY
AND INFECTIOUS DISEASES CONTRACT NOI-AI-15416 WITH THE UNIVERSITY OF
CALIFORNIA ATSAN FRANCISCO (A-03-10-03120)

  1553(b), NIH understands that the Department would still report the violatiC?n given its 

  nature. 


  Accotdingly, NIH agrees that a violation of the ADA has occurred with respect to this 

  contract. NIH understands that the Department of Health and Human Services (HHS) will 

  report the violation as required by 31 U.S .C. § 1351 . NIH further understands that HHS' 

  report will include a statement of the actions taken to address systemic problems within HHS 

  which led to this and other violations. NIAID has modified the contract to ensure that the 

  remaining contract performance is funded appropriately and in accordance with all applicable 

  laws and regulations. 

